      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                       Washington, D.C. 20201




September 16, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families

               /Joe J. Green/ for
FROM:          George M. Reeb
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Community Council of South Central Texas, Inc.’s Compliance With
               Health and Safety Regulations for Head Start Programs (A-06-09-00081)


Attached, for your information, is an advance copy of our final report on Community Council of
South Central Texas, Inc.’s (the Grantee) compliance with health and safety regulations for Head
Start programs. We will issue this report to the Grantee within 5 business days. The
Administration for Children and Families, Office of Head Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or Patricia Wheeler, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414
or through email at Patricia.Wheeler@oig.hhs.gov. Please refer to report number A-06-09-00081.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                        Office of Audit Services, Region VI
                                                                        1100 Commerce Street, Room 632
                                                                        Dallas, TX 75242



September 21, 2010

Report Number: A-06-09-00081

Mr. Robert Lucio
Executive Director
Community Council of South Central Texas, Inc.
205A East Court Street
Seguin, TX 78155

Dear Mr. Lucio:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Community Council of South Central Texas, Inc.’s
Compliance With Health and Safety Regulations for Head Start Programs. We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Sylvie Witten, Audit Manager, at (512) 339-3071 or through email at
Sylvie.Witten@oig.hhs.gov. Please refer to report number A-06-09-00081 in all
correspondence.

                                             Sincerely,


                                             /Antonio Wilkinson/ for
                                             Patricia Wheeler
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Robert Lucio


Direct Reply to HHS Action Official:

Mr. Leon R. McCowan
Regional Administrator, Region VI
Administration for Children and Families
U.S. Department of Health & Human Services
1301 Young Street, Room 914
Dallas, TX 75202-5433
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




    REVIEW OF COMMUNITY
  COUNCIL OF SOUTH CENTRAL
   TEXAS, INC.’S COMPLIANCE
   WITH HEALTH AND SAFETY
      REGULATIONS FOR
    HEAD START PROGRAMS



                      Daniel R. Levinson
                       Inspector General

                       September 2010
                        A-06-09-00081
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as “the Head Start program.” In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

Community Council of South Central Texas, Inc. (the Grantee), is a nonprofit organization with
headquarters in Seguin, Texas. The Grantee’s goal is to alleviate poverty by providing programs
for the elderly and for low-income individuals and families. The Grantee operates a Head Start
program at seven State-licensed facilities in the south central Texas area. For program year
November 1, 2009, to October 31, 2010, OHS awarded approximately $2.2 million in Federal
Head Start funds to the Grantee to provide services to 326 children. On July 1, 2009, the
Grantee also received $161,981 in Recovery Act funding.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of December 2009:

   •   The files on the Grantee’s 85 employees and contractors contained evidence of the
       required background checks. However, the Grantee did not always request these checks
       when they were due.

   •   Four of the six Grantee childcare facilities that we visited did not meet all Federal Head
       Start and State requirements on protecting children from unsafe materials and equipment.

   •   Two of the six Grantee childcare facilities that we visited did not provide a fully secure
       environment for the children in their care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements. The Grantee’s failure to follow these requirements
jeopardized the health and safety of children in its care.




                                                 i
RECOMMENDATIONS

We recommend that the Grantee develop and consistently follow procedures to ensure that:

   •   required background checks are completed when due,

   •   all unsafe conditions are corrected and all necessary repairs are addressed in a timely
       manner, and

   •   all facilities are secure.

GRANTEE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Grantee described actions that it had taken or
planned to take to address the deficiencies that we identified. Specifically, the Grantee stated
that initial background checks and Federal Bureau of Investigation fingerprinting would be
conducted before hiring new employees and that background checks would be repeated every 24
months from the hire date. Furthermore, the Grantee said that it had implemented action plans to
correct some of the reported material and equipment deficiencies and that it intended to
implement plans to correct the remaining deficiencies by September 7, 2010.

The Grantee disagreed with our finding that an open bucket of bleach solution was stored on a
food cart before meals were served at Comal No. 1. The Grantee said that bleach was kept in
spray bottles and was not present on the food cart at the time of our review. The Grantee’s
comments are included in their entirety as Appendix B.

Kitchen staff at Comal No. 1 told us that one of the buckets shown in Appendix A, Photograph 3,
contained a bleach/water solution that was used to wipe tables after meals.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION.......................................................................................................................1

         BACKGROUND ...............................................................................................................1
             Federal Head Start Program .....................................................................................1
             Federal and State Requirements for Head Start Grantees. .......................................1
             Community Council of South Central Texas, Inc. ...................................................1
             Office of Inspector General Audits ..........................................................................2

        OBJECTIVE, SCOPE, AND METHODOLOGY ..............................................................2
             Objective ..................................................................................................................2
             Scope ........................................................................................................................2
             Methodology ............................................................................................................2

FINDINGS AND RECOMMENDATIONS .............................................................................3

         EMPLOYEE BACKGROUND CHECKS .........................................................................3
             Federal and State Requirements...............................................................................3
             Grantee’s Compliance With Background Check Requirements ..............................4

         MATERIAL AND EQUIPMENT SAFETY AND FACILITY SECURITY ....................5
             Federal and State Requirements...............................................................................5
             Grantee’s Compliance With Federal and State Requirements .................................5

        INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES .......................7

         RECOMMENDATIONS ...................................................................................................7

         GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL
          RESPONSE .....................................................................................................................7

APPENDIXES

         A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT SAFETY AND
            FACILITY SECURITY REQUIREMENTS

         B: GRANTEE COMMENTS




                                                                     iii
                                        INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as “the Head Start program.”

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal and State Requirements for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
regulations also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing regulations. Alternatively, if
State and local licensing standards are less stringent than the Head Start regulations or if no State
licensing standards are applicable, grantees must ensure that their facilities comply with the Head
Start Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).

In Texas, childcare centers must comply with the Texas Administrative Code, Title 40, part 19,
chapters 745 and 746, and the Texas Human Resources Code, chapter 42.

Community Council of South Central Texas, Inc.

Community Council of South Central Texas, Inc. (the Grantee), is a nonprofit organization with
headquarters in Seguin, Texas. The Grantee’s goal is to alleviate poverty by providing programs
for the elderly and for low-income individuals and families. The Grantee operates a Head Start
program at seven State-licensed facilities in the south central Texas area. For program year
November 1, 2009, to October 31, 2010, OHS awarded approximately $2.2 million in Federal
Head Start funds to the Grantee to provide services to 326 children. On July 1, 2009, the
Grantee also received $161,981 in Recovery Act funding.




                                                 1
Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records, facilities, and transportation program as of
December 2009. To gain an understanding of the Grantee’s operations, we conducted a limited
review of the Grantee’s internal controls as they related to our audit objective.

We performed our fieldwork on December 16 and 17, 2009, at the Grantee’s administrative
office in Seguin, Texas, and at six of its seven childcare facilities in the Texas towns of Cibolo,
Marion, New Braunfels, and Seguin. 1

Methodology

To accomplish our objective, we:

       •   selected the Grantee based on prior risk analyses and discussions with ACF officials;

       •   reviewed Federal and State laws, requirements, and policies related to Federal grant
           awards and the Head Start program;

       •   reviewed the Grantee’s Head Start grant applications and current grant award documents;

       •   reviewed the Grantee’s files on all 85 current Head Start employees and individuals
           under contract with the Grantee (contractors); 2

       •   reviewed the qualifications of the Grantee’s 3 busdrivers;

       •   inspected 1 of the 2 schoolbuses that the Grantee used to transport Head Start children on
           field trips;


1
    We did not review the McQueeney Head Start center.
2
    The 85 current employees and contractors were partially or fully funded by the Head Start grant award.



                                                           2
   •   reviewed the Grantee’s documentation of fire and sanitation inspections;

   •   visited 6 of the Grantee’s 7 childcare facilities; and

   •   discussed our preliminary findings with Grantee officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of December 2009:

   •   The files on the Grantee’s 85 employees and contractors contained evidence of the
       required background checks. However, the Grantee did not always request these checks
       when they were due.

   •   Four of the six Grantee childcare facilities that we visited did not meet all Federal Head
       Start and State requirements on protecting children from unsafe materials and equipment.

   •   Two of the six Grantee childcare facilities that we visited did not provide a fully secure
       environment for the children in their care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements. The Grantee’s failure to follow these requirements
jeopardized the health and safety of children in its care.

EMPLOYEE BACKGROUND CHECKS

Federal and State Requirements

Pursuant to section 648A(g) of the Head Start Act (42 U.S.C. § 9843a(g)), a Head Start grantee
may not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State,
tribal, or Federal criminal record check covering all jurisdictions where the grantee provides
Head Start services to children; (2) a State, tribal, or Federal criminal record check as required by
the law of the jurisdiction where the grantee provides Head Start services; or (3) a criminal
record check as otherwise required by Federal law.

The Texas Administrative Code, chapter 745, rules 601 through 753, outlines the requirements
for background checks on employees and contractors at childcare centers. Rule 745.615 requires
that background checks be performed as part of an applicant’s initial employment process.


                                                 3
Three types of background checks required by this rule include (1) a name-based check of the
State’s database of crimes committed in the State, (2) a check of the State’s central registry for
instances of child abuse or neglect, and (3) a fingerprint-based check of the Federal Bureau of
Investigation (FBI) database of crimes committed in the United States.

Rule 745.615 requires that background checks be performed on all persons aged 14 or older,
other than clients of the operation, who will regularly or frequently be present at the operation
while children are in care. The name-based check and the child abuse or neglect registry check
must be repeated every 24 months. According to the Texas Department of Family and Protective
Services’ Implementation Progress Report, 3 the State phased in a rollout schedule to address the
one-time fingerprint-based check requirement. 4 The State’s rollout schedule began requiring the
fingerprint-based check for certain new employees on September 1, 2007, and required this
check to be completed no later than September 1, 2009, for all employees and persons who
regularly or frequently stayed or worked at the facility.

Grantee’s Compliance With Background Check Requirements

As of December 2009, the Grantee had obtained all 3 types of background checks for its 85
employees and contractors. However, the Grantee did not always request these checks when
they were due. As shown in the table below, the Grantee did not request initial background
checks on 24 employees (teachers, teacher aides, and cooks) for as long as 7 years after they
were hired.

            Length of Time Employees Worked Without Initial Background Checks

                        Time Employed Without an                       Number of
                         Initial Background Check                      Employees
                      30 days or less                                      2
                      31 to 364 days                                       6
                      1 to 7 years                                        16
                          Total                                           24

Of the 16 employees whose background checks were 1 to 7 years late, 5 did not have their initial
background checks completed until more than 6 years after they were hired.

In addition, the Grantee did not request 24-month and/or fingerprint-based checks on 45
employees in a timely manner. These lapses ranged from 1 day to 1 year and 8 months.

By not ensuring that all employees had timely background checks, the Grantee potentially
jeopardized the safety of children in its care.


3
  SB 758 Implementation Progress Report: A Report From the Texas Department of Family and Protective
Services, issued September 1, 2009.
4
  The Texas Administrative Code, rule 745.630, does not require this check to be repeated if a person has a
fingerprint-based criminal history on record with the Texas Department of Family and Protective Services and it has
not been more than 24 months since a name-based criminal history check was resubmitted.


                                                         4
MATERIAL AND EQUIPMENT SAFETY AND FACILITY SECURITY

Federal and State Requirements

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)), grantees must provide for the
maintenance, repair, safety, and security of all Head Start facilities, materials, and equipment.
Grantees must ensure that indoor and outdoor premises are cleaned daily and kept free from
undesirable and hazardous materials and conditions.

Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements. If these licensing standards are less
comprehensive or less stringent than Head Start requirements or if no State or local licensing
standards are applicable, grantees must ensure that their facilities comply with the Head Start
Program Performance Standards related to health and safety.

Texas Administrative Code rule 746.4603(5) states that children must not use multiple-
occupancy swings such as teeter-totters. Further, rule 746.3701(1) requires that electrical outlets
accessible to children younger than 5 years of age have childproof covers or safety outlets. The
Texas Department of Family and Protective Services Minimum Standards for Licensed Child-
Care Centers state:

        Supervision alone cannot prevent all accidents and injuries, therefore the
        environment must be free of health and safety hazards to reduce risks to children.
        Additional examples of hazards to children include: sharp scissors, plastic bags,
        knives, cigarettes, matches, lighters, flammable liquids, drugs/medications, sharp
        instruments such as an ice pick, power tools, cleaning supplies, chemicals and other
        items labeled keep out of the reach of children. 5

Grantee’s Compliance With Federal and State Requirements

Our visits to six of the Grantee’s facilities found that four facilities did not meet all Federal Head
Start and State health and safety requirements on protecting children from unsafe materials and
equipment. In addition, two of the four facilities did not provide a fully secure environment for
the children in their care. We defined “facility security” as limiting public access to the facilities
and preventing children from leaving the facilities.

Comal No. 1 (visited December 16, 2009)

    •    A pair of sharp scissors was in an open plastic bin on a bookshelf accessible to children
         (Appendix A, Photograph 1).

    •    Electrical outlets in classrooms and other areas accessible to children lacked child-
         resistant covers, and one outlet had exposed wires (Appendix A, Photographs 2a and 2b).


5
 Section 42.042 of the Texas Human Resources Code requires the Texas Department of Family and Protective
Services to establish minimum standards for childcare centers.


                                                      5
   •   Open buckets of bleach and soap solutions were placed on food carts before meals were
       served (Appendix A, Photograph 3).

   •   Lockers that children used to store backpacks and coats were not always attached to the
       wall and could have fallen.

   •   The exterior side doors to the building were unlocked and propped open. The doors
       opened to the street, allowing unrestricted entry into the facility (Appendix A,
       Photograph 4).

   •   A door of a portable classroom building was difficult to open, which could have
       prevented easy exit during a fire or other emergency. The bottom of the door scraped
       against the outside deck, which may have been warped (Appendix A, Photograph 5).

Comal No. 2 (visited December 16, 2009)

   •   The playground equipment included a teeter-totter (Appendix A, Photograph 6).

   •   An exposed tree stump and plastic landscape edging in an area leading to the playground
       presented potential tripping hazards (Appendix A, Photograph 7).

   •   Lockers that children used to store backpacks and coats were not always attached to the
       wall and could have fallen.

Comal No. 4 (visited December 16, 2009)

   •   Electrical outlets lacked child-resistant covers, and one outlet had exposed wires.

   •   Lockers that children used to store backpacks and coats were not always attached to the
       wall and could have fallen (Appendix A, Photograph 8). We witnessed one set of lockers
       pulling away from the wall as a child pulled her coat from a hook at the top of a locker.

Seguin (visited December 16, 2009)

   •   A vent cover with sharp edges at the bottom of an exterior wall was partly detached and
       accessible to children (Appendix A, Photograph 9).

   •   The exterior side door to the building was unlocked, allowing unrestricted entry into the
       facility. The door opened to a hallway where classrooms were located. We observed
       people entering the facility in the middle of the day without having to identify themselves
       (Appendix A, Photograph 10).

By not ensuring that all facilities were kept free from unsafe materials and equipment and that all
facilities were secure, the Grantee jeopardized the safety of children in its care.




                                                 6
INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements.

RECOMMENDATIONS

We recommend that the Grantee develop and consistently follow procedures to ensure that:

   •   required background checks are completed when due,

   •   all unsafe conditions are corrected and all necessary repairs are addressed in a timely
       manner, and

   •   all facilities are secure.

GRANTEE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Grantee described actions that it had taken or
planned to take to address the deficiencies that we identified. Specifically, the Grantee stated
that initial background checks and FBI fingerprinting would be conducted before hiring new
employees and that background checks would be repeated every 24 months from the hire date.
Furthermore, the Grantee said that it had implemented action plans to correct some of the
reported material and equipment deficiencies and that it intended to implement plans to correct
the remaining deficiencies by September 7, 2010.

The Grantee disagreed with our finding that an open bucket of bleach solution was stored on a
food cart before meals were served at Comal No. 1. The Grantee said that bleach was kept in
spray bottles and was not present on the food cart at the time of our review. The Grantee’s
comments are included in their entirety as Appendix B.

Kitchen staff at Comal No. 1 told us that one of the buckets shown in Appendix A, Photograph 3,
contained a bleach/water solution that was used to wipe tables after meals.




                                                7
APPENDIXES
                                                                              Page 1 of 7


   APPENDIX A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT
            SAFETY AND FACILITY SECURITY REQUIREMENTS




Photograph 1 – Taken at Comal No. 1 on 12/16/09 showing a pair of sharp scissors and safe
scissors stored in an open plastic bin on a bookshelf accessible to children.




Photograph 2a – Taken at Comal No. 1 on 12/16/09 showing an outlet in a main hallway
that lacked a wallplate. The wires in the wall were accessible.
                                                                               Page 2 of 7




             Photograph 2b – Taken at Comal No. 1 on 12/16/09
             showing a closeup of the exposed outlet in Photograph 2a.




Photograph 3 – Taken at Comal No. 1 on 12/16/09 showing open buckets of bleach/water
and soap/water solutions stored on food carts in the classroom hallway before meals were
served.
                                                                              Page 3 of 7




Photograph 4 – Taken at Comal No. 1 on 12/16/09 showing a side entrance with one of the
double doors propped open. The doors, which opened to the street, allowed unrestricted
access to the classrooms.
                                                                   Page 4 of 7




Photograph 5 – Taken at Comal No. 1 on 12/16/09 showing a
portable classroom building door that was difficult to open. Opening
the door beyond this point required significant effort because the
door scraped the deck.
                                                                                 Page 5 of 7




Photograph 6 – Taken at Comal No. 2 on 12/16/09 showing a teeter-totter on the
playground.




Photograph 7 – Taken at Comal No. 2 on 12/16/09 showing an exposed tree stump and
surrounding plastic landscape edging in an area leading to the playground. The stump and
edging were potential tripping hazards.
                                                                                Page 6 of 7




Photograph 8 – Taken at Comal No. 4 on 12/16/09 showing lockers that were not attached
to the wall. We witnessed one set of lockers pulling away from the wall as a child pulled
her coat from a hook at the top of a locker.




Photograph 9 – Taken at Seguin on 12/16/09 showing a partly detached vent cover with
sharp edges at the bottom of an exterior wall.
                                                                              Page 7 of 7




Photograph 10 – Taken at Seguin on 12/16/09 showing an unlocked side door that allowed
unrestricted access to the building. The door opened to a hallway where classrooms were
located.
                                                                                                          Page 1 of7


                     APPENDIX B: GRANTEE COMMENTS


                       COMMUNITY COUNCIL 01 SOUTH CENTRAL TEXAS


                                                                                                                   j.




August 11 , 2010


Ms. Patricia Whulcr,
Rcgionlilinspector General for Audit Services
Office of Audit Services, Region VI
1 (00 Commerce Street, Room 632
Dallas, Texas 15242

Re: Report Number: A-06-09...()()()81

Dear Ms. Wheeler:
Community Coun cil of South Central Texas, Inc. (CCSCf) received the above referenced
cOITeSpoodcnce dated August 9, 20 10 on Augustll, 20 10. Enclosed please find one (1) original copy
of CCSCT's OffICe of Inspector General Review Action Plan. This Action Plan provides written
comments on all statement of concurrences specified in the report.

In oompliance with the request required by the OIG, an ekctronic ropy has been generated RJJd sent to
your office.

Should you have questions or need additional infonnation, please feel free to call or email me al (830)
)03 4376, ext. 235 or rlucio@.;:csctorg. Thank you in advance for your assistance.

Very Respectfully.




Robert J. Lucio
Executive Director
Community Council of South Central Texas, Inc.




    20S-A EAST COURT STREET' SEGUIN, TEXAS 78155 • (830) 303-4375 • FAX (830) 372-5354
                                                                                                                                             Page 2 of7



                                         COM-;\f1/NITY C O liNCII, OF SOUTH C El\'TllAl , T EXAS, 1l\'C
                                                  O FFIC I:: O~· INSPEC I'OK C .:NI<:KAL lU;V It:W
                                                                   ACTION PLAl"

          FINDING                   Il ESOtlT'11 0N              P IUJoGKA,.Vl I' I.AN        IUS I'ONSIDU:       T IM EJJNE    DOCUMt:.NTATIO N
                                                                                                  PA RTY
lk fik.s on the Grantee's 85   The Grantee di:! no!           Criminal background          Head Start Secretary    Effective    Texas   Dcpartm~nt of
employrtS WId cumnlclors       reque,,1 backgrwnd             chc..:ks will be                                             I,
                                                                                                                  JanlJlll)'    F2I1Iily and Protoctivc
contained evidence of the      checks when they were          CQIlducted prillrlO an       CeSeT      ~hnnan         2010       Scs\'icc:s Rackground
required background checks.    d..,. lbe Grantee did WI       empl"y..., being hired       Rewurcc l)ift;Ctor                   Check Clearance
Howe""., the Granl"" did WI    n:quest      initial           and every 24 months                                  On~oini\     R_
always ""u~51 the~ checks      background che<.:ks on 24      from the hire dale.          Head Start Program
when they >.>rere due.         employees for 8$ \.mg as                                    Director                             fAST Pass reccipl$
                               7 }'<''''''' after they were
                               hired,

                               Of the    16whos<:             Initial bacl.;ground                                              Personnel Action
                               backgroWld checks were         ch~-ch;  and FBI                                                  Fonn
                               I to 7 year:; IUle. 5 did      Fingerprinting ,,;11 be
                               no! have their initial         conducted prior 10 Mly
                               bKckvow,d cbt;cks              employ<:<: tlt-ing hired.
                               compictcd unti l more
                               than 6 years after they
                               were hil'<'d.

                               In addition, the Gronlee       24-month criminal
                               did not rcqllC5t 24·month      background chccl:s "ill
                               audlor Iingerprint_base<I      tit- CQUlpleted in
                               cbecks on 4S empl<»'ecs        accordance with inilial
                               in a timely manner.            hire date. FRJ
                               ~ lap:sc:s . anged fr(lm       Fin&erPrinting will be
                                I day to I yea.- and 8        condl>Clc"d prior 1(1 !III
                               months.                        em lo ·ee bcin hired.
                                                                                                                                                      Page 3 of7



                                          COMMUNITY COUNClL OF SOUTH C E"'TRAL TEXAS, I NC                                                                    2
                                               OFFICE OF INSPECTOR GENERAL REVIEW
                                                           AcrIQ"" FLAK

           FINDING                     OESCIUM'IO:-                 I'({OGRAM I'UN               ItESI'OSSllIU       TIM.EU .'IIF.   nocU M~;.NTA T I O N
                                                                                                    I'ARTV
fuur uflbe ~ix Granle<:          Coma/ No. J                     Cenler Directors will        T~""h"rs               Effc,liv(       C I ~sroom    Ilnd
childcare f~cllilies that were
visited did not meet all
Federal Head Start and Stale
                                 A pair ofsharp scissors
                              "'1IS in an open plastic
                              bin On a bookshelf
                                                                 conduct monthly
                                                                 Classroom Md a ui lding
                                                                 Safety Reviews to
                                                                                              Cc:ntcr nirccln!'ll    "'-"" 

                                                                                                                     2010
                                                                                                                                     Building Safely
                                                                                                                                     Chc<:kliSls

requirements on proteCting    accessible 10 children.            ensure facilities are !Tee                                          Mailllc~Ja!lC~   l ow>
children from unsafe melenals                                    of unsafe material s sod
and equipment.                                                   equipment.                                                          CACFP Obscmotio"
                                                                                                                                     Reviews
                                 Electrical "ulielS in           Center Directors "ill      Center Di=torll          September
                                 classroom.!. t!nd other         conduct "",Ik-\hru of                               7,2010          TOFPS Child Care
                                 are.. !lC<:essible to           classrooms and other                                                Licmsing Reports
                                 children locked child           areas prior to me SI311 of
                                 resistAnt oov",,". and one      the school ycar 10
                                 outlet had exposed wires..      ensure safety.

                                 Open huck<:18 ofbleacb          Soapy water WId plain        Nutrition Specialist   Err"",live      ),lonthly Food
                                 and soap "'......, pla<::~ on   water arc used by the        CentCT Directors       Janllllry 1.    Sep,ice Observalion
                                 food carts before meals         children 10 clean the                               2010            Reviews
                                 wert sep,·ed                    dining tables. Soopy         FOO<I St:nice Slaff
                                                                 water will not be slored                            Oogoing
                                                                 on food carts. TIleacb is
                                                                 only utillO«:d b}·
                                                                 Itacbing >taffand
                                                                 kitchen mff via ~pray
                                                                 boule and was not
                                                                 present on cart at tifnll
                                                                 of rcviC\>o·.

                                 lock~    that childr..,         lockers and oth<:<           C""ter Directors       September       CIII$SfQOtn and
                                 u.~ to  >tore backpacks         unstable furniture will                             7.2(110         Building SafelY
                                 and coat. wert not              be m(lUnled to wall or                                              Checklist
                                 always altachcd 10 the          floor 10 ""sure I-IIfcty
                                 wall and could have             prior 10 the Stan of the                                            Mainlenance R"'Iucst
                                 fallen.                         school   .ea!".                                                     Fom
                                                                                                         Page 4 of7



           cm.nfL~ln'   COUNCIL or SOUTII CE,....,'RA.L TEXAS, m e                                             J
                    OH'ICE OF ' i'OSpt:c rOK G[NEkAL lu; v n ;w
                                    ACTION PLAf'
                            --

CflmalNo. l

The playground              TI-.o:tctltt-!OUtfWU         C=Dir«tOr            2116120 10    CWSfO(Kl\ and
equipment included a        .emovN.                                                         Buildi,,¥ Safely
leeter-lOUer.                                                                               Checklists

An <xp;>Kd uce stump        The "xposed In:'<: ~lIIIlp   Ce" ter Uim:tQr      2/1612010     Grow><k
lUld plastic 1and!lCape     and plas<JC land!lCape                                          M:<intenancc and
edging in 8n area leading   edgin g WIIS rono,-ed.                                          Saf~CMckl i sl
to \he: playground
PJ"",,"LW potential                                                                         Maintenance Logs
tri pping h!l7snh.

                            Lockers ~ s~ urcd to         Ccmcr nir«tor        2125f.lO IO
lockers that child,e"
~ ID store backpacks
and ooal S ~re not
                            "",.
aJWII)'lI,lhll;hed to the
wall and could have
fallen.

Co_d No.4
                            Cent« Di=tors will
EIcctric&I outlets lacked   mnduct mon~y                    Center DiTUtO!'   !;fT«1ive     C"""""' ...
child-resisWlI C01o-':rs,
and One o utlet had
                            C lassroom and DuiJding
                            Safrly Reviews to                                 ""='
                                                                              7,2010""
                                                                                            Build,", Saf",-y
                                                                                            Chcdd ists
exposed "m,s.               ensure faciJ:un an: r-
                            o f unu.fe nwc:rials and
                            cquiproenL

Loci:<:n thr. chi\dmn
uocd 10 SIOJC backpacks     Locken will be. secORd          Cente, Dircaor    Sqlfl:mbcr
and wali ~'" !lOt           to walb pcK. 10 Ibc: .tart                        7. 2010
ah''aYlllllaChed to 110."   of the school )eIU'.
WIlli and could ha>1::
fallen .
                                                                                                        Page 5 of7



         C OMMUNITY COUNCIL OF SOIJTII CENTRA L TEXAS, INC                                                     ,
               m ' . ' IU: O F INSPECTOR GE:"IERAL REVU:W
                                  ACfIOJ'OPLAN

SrI";"   (.'~lIle,


A vent cover ..... ilh ~h"'ll   The "..,n. COVCr will be   Center Di..,ctor   September   Grounds
edges a. the bottom orall       repla«d.                                      1,2010      Maintenance and
eXlcn.,,- WlIIi was partly                                                                Safely Checl:lil;l
detacOO! and accessible         Center Directors wi!!
(0 children.                    conduct grounds
                                maintenance check prior
                                to the SlBn oflhe school
                                year.
                                                                                                                                                       Page 6 of7



                                                   COMMUNITY COl.fNCIL OF SOIffH CENTRAL TEXAS, I:-iC                                                         5
                                                            OfFICE Of I,,"SP E:CTOR CF:l\"ERAL R}: V1F:W
                                                                           ACTiO:'" PLA;\j

            FLOWING                            OfSCRIl'TION               PROGKA.YI PUN                RESPO:"ISIBLE         TIMI:LlNE     DOCUML'TA T ION
                                                                                                           mTV
Two of LiIe six Gran~ child<:are        CnlnlilNo. I
facilities that W"", ,-;,iIN did IK)I
provide I. fully !leeu,,"               11JC utcflur side door-s to c .... tcr Direc'ors "ill          ~ nter Dire<:ton      Effective     Grounds
<nviro"m""' forthc ohildre" in          the buildings_re               enSu'" doon l<> building                              January 4,    MainlerWlCC and
!h";, caI'<".                                                          arc _ured .1 aU tim...                                201 0         Safety Checklist
                                        unlocked and propped
                                                                       Center Directors will
                                        open. The doors opelled        designate: authorittd
                                        10 the street, allowing                                                              Ongoing
                                                                       tntl)''''''''
                                        unn:.slricted enlry into the
                                        fatilit)'.

                                        A door ofa portable            The TlII1lJ' of the porubl.    1I ••d Starl Program   September     Im'oices
                                        classroom building ",,'IS      ol...room building will be          Dire<1Or          7,2010
                                        difficult to open. which       rcjnirOO with fl.,   wood <0
                                        could oovc prevented           prev.!~ l ongoil\i wMjling

                                        easy exit durin& • fi re or    ond ensure ca<y entry/a il
                                        otJ><, ~me'llcllc y. 11,e
                                        bottom of the door
                                        "'mped agai!lll' the
                                        outside deck. which may
                                        have been warped.

                                        S~g"in C.nf~r


                                        The: ex lerior sid~ door to    The Ccn!er Ditc<:lor will       Ccn: ... Director     F.ffC(:1ive   Gmunds
                                        the building ,,'lIS            enslln> door to building i.                           January 4,    Mainlenance and
                                        unlockW, aUowing               secured . ' ,II time!;"                               2010          Saf~ly Checklist
                                                                       Cent... l) ir«tor will
                                        u=wicted entry into the
                                                                       d... ignal~ authorized
                                        facility. The door
                                                                       enlIY""ayat me sile.
                                        opcood 10 8 hallway
                                        "'here classrooms ~rc
                                        1CJ\; ~ted .
                                                                                                                                                  Page 7 of7



                                           CO)IM UN ITY COUI"CI L OF SOUfIi Ch!NT RAL TF.XAS, INC                                                       6
                                                  OFFICE 0 )' INSPECTOR (;ENERAL R};VlEW
                                                                 ,\cnON PLA."

           !'INIlING                    DESCRIPTION                PROGRAM PLAN                RESPONSmL£             nMELJII,'l;   OOCU~U'.NTilTiOS


W.c'~ncie:s UCCUll\:ol because By 001 ensuring mal aU
the Gramee did not hal'e           fEICil ilies were kepi 00
                                                                 Monitoring plans ha""
                                                                 been dC'I,cloped u)        Director
                                                                                                    ''"''''
                                                                                            Head Stan Program         Se;>tembcr
                                                                                                                      7, 20 10
                                                                                                                                    Component
                                                                                                                                    mnniloring plan~
J'l<kquatc proccdu",s or did       from unsafe materia)"         ensuu e<>mpliance wilh
not consistcndy follow             ar.d equipment and thal       Federal and Stltle heahh   All Compo"""!                           M(>nilorin~plu.o
proced\ll"O~ 1hm wcre in plactl    all facilities wen:   ~ure,   &8.fcly requircmcnt5,      Specialist>                             cl>ecklislS
10 cn>urc 11ui1 it complied with   The Grant"" jcopanlizro
Federal and State health and       the safety of children in                                All Cent .... 1)'=IOl"$
",.rely requirements. Th~          its=.
Omntee', failure to follow
these ""Iu;remcnl1l
j""panJj~oo   the health and
saf~IY of children in ;ISCare.
